Appendix C

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 1 of 23

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION

FIVEA SHARIPOFF,

Case No. 3:16-cv-01711-AC
FINDINGS AND RECOMMENDATION
Petitioner,

V.

ROB PERSSON, Superintendent,
Creek Conectional Institution,

Coffee

Respondent.

ACOSTA, Magistrate Judge:
Petitioner, an inmate in the custody of the Oregon Department of Corrections, brings this
habeas corpus action pursuant to 28 U.S.C. § 2254. As explained below, Petitioner's Petition for
Habeas Corpus (ECF No. 2) should be DENIED.

Background
On March 1, 2007, a Linn County grand jury indicted Petitioner on two counts of
Manslaughter in the First Degree, one count of Assault in the Second Degree, and one count of
Driving under the Influence of Intoxicants ("DUII"). Resp. Exh. 102, pp. 1-2. The victim in

Page 1 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 2 of 23

Count One was identified as Angela Svendsen, and the victim in Count Two as Kjersten Oquist.
Counts One and Two alleged as to each victim that Petitioner "did unlawfully and recklessly, under
circumstances manifesting extreme indifference to the value of human life, cause the death of
another human being." Resp. Exh. 102, p. 1. Count Three alleged that Petitioner "did unlawfully
and recklessly under circumstances manifesting extreme indifference to the value of human life
cause serious physical injury to Kelli Gronli by means of a dangerous weapon, to-wit: a vehicle."
Resp. Exh. 102, p. 2. Count Four alleged that Petitioner "did unlawfully drive a motor vehicle
upon a public highway or premises open to the public while under the influence of intoxicants, towit intoxicating liquor and/or a controlled substance." Id.

The indictment stemmed from a two-

car collision on February 11, 2007, in which Petitioner drove the wrong way onto Interstate 5 ("I5") in Albany, Oregon, and collided into the car carrying Svendsen, Oquist, and Gronli.

I.

Evidence at Trial
On February 11, 2007, around 5:00 p.m., Petitioner met her friend, Justin Smith, at a pizza

restaurant in Albany. Tr. 910, 1140. The two shared beer and some breadsticks. Tr. 911. In
total that evening, Smith ordered two small (thirty-two ounce) and two large (sixty ounce) pitchers
of beer. Tr. 734-35, 760, 911. Smith consumed one small pitcher before Petitioner arrived. Tr.
910, 1140. Petitioner shared the remaining pitchers with Smith about equally, although the pair
left some beer in their glasses and in the final pitcher. Tr. 740, 911-12, 925, 1142. Petitioner
estimated that she consumed three-and-a-half to four mugs of beer in total. Tr. 1141. Staff at
the restaurant considered cutting off the pair because they had ordered more beer than restaurant
policy allowed, but they decided not to do so. Tr. 739, 753-54, 761-62. Neither Petitioner nor
Smith appeared obviously impaired to the staff. Tr. 736, 753, 761. Petitioner and Smith left the

Page 2 - FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 3 of 23

restaurant around 8:30 p.m. Tr. 737, 759, 912, 1141.
Petitioner drove Smith in her car to Smith's mother's house a few miles away, following
Smith's directions. Tr. 912-13, 1142-44. Petitioner felt fine driving. Tr. 1144. Petitioner
visited with Smith's family, then Petitioner drove with Smith to a grocery store where they
purchased beer and wine as a gift for Smith's mother, who had been babysitting his children. Tr.
913-14, 935-36, 948-50, 1144. Petitioner and Smith returned to Smith's mother's house and
continued their visit; neither Petitioner nor Smith consumed the purchased alcohol or any other
alcohol at the house. Tr. 914, 935-36, 1145. Petitioner did not appear impaired either to Smith
or to his family. Tr. 915-16, 937, 95051. Petitioner drove Smith back to the pizza restaurant
some time past 10:00 p.m. so that he could retrieve his own car. Tr. 914-15, 1147-48.
Petitioner began driving, intending to go north on I-5 to her home in Salem. Tr. 1149.
She saw a sign to turn left to I-5 going n01ih and made the turn. Tr. 1149. Although she did not
notice any wrong-way signs, in fact she had turned too sharply, driving onto the off-ramp for cars
exiting I-5 north. Tr. 1149. Petitioner soon saw headlights coming at her and realized while she
was on the ramp or soon after she entered the freeway that she was going the wrong direction. Tr.
1149-50, 1155, 1169-70, 1175.

Petitioner sped up to merge onto the freeway, then began

traveling south in the northbound lanes ofl-5. Tr. 638-40, 647-48, 1155.
Once on the freeway, Petitioner moved over and began traveling south in the lane next to
the median - for northbound traffic, the left passing lane. Tr. 596, 639, 647-48, 1150. From
Petitioner's perspective, she moved to her right. Tr. 1150. A driver traveling n01ih in the right
lane watched Petitioner pass by going the wrong direction and called 9-1-1. Tr. 638-40, 647-48.
Soon after, Petitioner's car crashed into a car traveling north in the left lane. Tr. 595-97, 651-53.

Page 3 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 4 of 23

Accident reconstruction revealed no evidence that Petitioner took evasive action. Tr. 1001. The
crash occurred 956 feet from the exit at which Petitioner entered the highway. Tr. 810. First
responders were called to the scene at 10:47 p.m. Tr. 607, 623.
The car Petitioner hit was driven by Oquist, with Svendsen sitting in the front passenger
seat and Gronli in the back. Tr. 592-94. The three, all musicians in the Eugene Symphony, were
returning home to Portland from a rehearsal in Eugene. Tr. 591-92. Oquist pulled the car to the
right as Petitioner approached, then the car shimmied and returned to the left lane before
Petitioner's car hit it. Tr. 596-97, 653. Oquist and Svendsen died at the scene. Tr. 611-12.
Gronli was taken to the hospital with several injuries and suffered lasting nerve damage in her
hand. Tr. 599-603.
At the scene, a firefighter, a paramedic, and a driver from another vehicle who interacted
with Petitioner all noticed a strong smell of alcohol coming from her and believed her to be
intoxicated. Tr. 617-18, 626,629,656. Petitioner was crying and distraught. Tr. 615,624,655.
Petitioner told the paramedic she had been drinking. Tr. 626.
Petitioner airived at the hospital at 11 :22 p.m.

Tr. 665.

Two nurses treating her

perceived her to be intoxicated, with bloodshot eyes, slurred speech, and a strong smell of alcohol,
among other signs. Tr. 666, 696-97. An Oregon State Police trooper who observed Petitioner
at the hospital also smelled a strong odor of alcohol from her and formed the opinion that she was
very impaired by alcohol. Tr. 767-68, 772-73. Upon discharge, Plaintiffs diagnoses included
"alcohol intoxication" and "possible concussion." Tr. 682, 687.
In a medical blood draw at 11 :30 p.m., Petitioner's blood alcohol content was 0.246 in a
serum test performed in the hospital lab, equivalent to approximately 0.20 in a forensic test. Tr.

Page 4 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 5 of 23

700, 723, 844. In a blood draw performed pursuant to a warrant at 2:08 a.m., Petitioner's blood
alcohol content was 0.15 in a forensic test. Tr. 839-40. A forensic scientist from the Oregon
State Police Crime Lab testified that these two measurements were consistent with each other
given dissipation of blood alcohol over time, and the measurements indicated that Petitioner had a
blood alcohol content between O.18 and O.21 at the time of the collision. 1 Tr. 848-50.
An Oregon State Police trooper questioned Petitioner after she was discharged from the
hospital at 2:30 a.m. on February 12. Tr. 794. Petitioner told the trooper that she had had three
to four beers, starting at 5:30 p.m., and "her last drink just before the crash." Tr. 796. Petitioner
said she had taken Cipro (an antibiotic prescribed to her) and Zoloft at noon. Tr. 799-800.
Petitioner told the trooper she thought she was fine until she sat behind the wheel. Tr. 798. She
said that she had tried to drive home going n01ih on I-5, then realized she was going the wrong
way. Tr. 797-98. She said she remembered trying to slow and pull to the right and that she had
been very confused. Tr. 798. The trooper questioning her perceived her to be impaired at the
time of the conversation based her conduct and a moderate odor of alcohol. Tr. 801-02. The
trooper arrested Petitioner. Tr. 801.
Another trooper questioned Petitioner in jail on the afternoon of February 12. Tr. 81617. Petitioner again reported that she had consumed three or four beers. Tr. 817. She told him
that she was "messed up." Tr. 820, 1174. She explained that she had never taken that particular

(1) A person commits the offense of driving while under the influence of intoxicants
if the person drives a vehicle while the person:
(a) Has 0.08 percent or more by weight of alcohol in the blood of
the person as shown by chemical analysis of the breath or blood of
the person ... ; [or]
(b) Is under the influence of intoxicating liquor[.]
OR. REV. STAT.§ 813.010 (2019).

Page 5 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 6 of 23

exit before. Tr. 823. The trooper testified that she told him, "I took a wrong way. I realized it
right away. I just wanted to get off the lanes, but I guess it was too late." Tr. 820. Petitioner
also told the trooper that she had previously taken an eight-hour course on the dangers of drinking
and driving. Tr. 819-20.
At trial, the prosecution presented evidence about Petitioner's participation in a course on
the dangers of drinking and driving after she was anested for DUI in Clark County, Washington
in 2003. Tr. 868, 872. The course included videos, photos, and a victim impact panel. Tr. 81920, 867-72. Petitioner completed a test at the end of the course demonstrating her understanding
of the dangers of drinking and driving. Tr. 879-80. Petitioner testified at trial that the course
taught her to plan ahead to use a hotel, taxi, or designated driver when drinking, and that she had
done those things on other occasions when she drank. Tr. 1146-47. She testified, "I took the
classes. I know the risks." Tr. 1176.
At trial, Petitioner sought to demonstrate that the intersection was confusing and difficult
to navigate. To do so, she sought to introduce expert evidence about the design of the intersection
as well as firsthand testimony from drivers who had navigated the intersection inconectly. Tr.
477-78. Petitioner sought to use evidence about the confusing intersection to undermine the
inference that Petitioner was acting recklessly under circumstances manifesting extreme
indifference to the value of human life, an element of the charges of Manslaughter in the First
Degree and Assault in the Second Degree. Tr. 954, 959. Her trial attorney noted that Petitioner's
having driven the wrong way was a circumstance that could manifest extreme indifference to the
value of human life, but the evidence that the off-ramp intersection was one where even unimpaired
people could enter the wrong-way demonstrated that Petitioner's conduct did not show extreme

Page 6 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 7 of 23

indifference. Tr. 954-5 6, 1020-21.
The prosecutor objected to the admission of evidence regarding other drivers' incorrect
navigation of the intersection as not relevant under Oregon Evidence Code ("OEC") Rule 401.
OR. REV. STAT.§ 40.150 (2019). Tr. 477-78. He argued that the experiences of other drivers
were not relevant to whether Petitioner herself was reckless under circumstances manifesting
extreme indifference to the value of human life when she navigated the intersection on the night
of February 11. Tr. 477-78. The trial judge agreed with the prosecutor that the experiences of
other drivers navigating the intersection, whether correctly or incorrectly, was not relevant to
Petitioner's case. Tr. 1023-26. The trial judge ruled that "neither side can be allowed to put on
individual instances of other people's conduct to show that this conduct was or was not of a
heightened degree of blame worthiness." Tr. 1024.
Accordingly, Petitioner could not present evidence that other drivers had navigated the
intersection incorrectly. Tr. 1127-31. In an offer of proof, a former Oregon State Police officer
testified that he had made the same error at the intersection while on duty on at least one occasion.
Tr. 1128-29.

He quickly pulled over and conected his wrong-way driving.

Tr. 1128.

Petitioner's attorney told the court that another police officer and four other drivers would have
testified similarly. Tr. 1130-31.
Petitioner was allowed to present expert evidence about the design of the intersection and
the elements that made it confusing. Tr. 1022-23. At trial, Petitioner introduced into evidence
a scale model of the intersection made by an accident reconstructionist. Tr. 956-66. 2 The

2

The initial model lacked certain signs, lights, and other elements of the intersection; the
reconstructionist added these elements and was recalled to explain the changes. Tr. 1051-54.

Page 7 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 8 of 23

accident reconstructionist explained how a driver could take the left turn too sharply, miss a
"wrong way" sign, and enter the off-ramp going the wrong direction. Tr. 968. Petitioner called
a highway and road safety engineer who testified that several elements of the intersection were
confusing and that numerous changes should be made to it. Tr. 1069, 1072, 1075-77, 1080-82.
The engineer noted that the placement of the stop line far back increased the risk a driver would
turn into the oncoming lanes of the off-ramp, that there should have been two "wrong way" signs
rather than one, that a "keep right" sign at the intersection was unclear, that several signs were
angled incorrectly, and that additional lines on the pavement would have provided more clarity.
Tr. 1069, 1072, 1075-77, 1080-81. The engineer noted that drivers making the turn at night
without other cars present would lack visual cues telling them not to enter the off-ramp. Tr. 1071.
Petitioner also called an investigator who testified that the day after the crash, a streetlight at the
intersection was not functioning, leaving the intersection without illumination. Tr. 1031-3 2.
In his opening and closing arguments, Petitioner's trial counsel urged the jury to find
Petitioner did not act recklessly or act recklessly under circumstances manifesting extreme
indifference to the value of human life, but instead was criminally negligent and should be guilty
of only the lesser included offense of criminally negligent homicide (as well as DUII). 3 Tr. 587,

3

"[I]ntoxication combined with negligent driving can constitute criminal negligence, recklessness
or recklessness under circumstances manifesting extreme indifference to the value of human life,
depending on the nature of the accused's erratic driving, the extent of his intoxication and the
attitude he displays toward the consequences of his acts." State v. Hill, 298 Or. 270, 280 ( 1984).
A person who is criminally negligent with respect to a result "fails to be aware of a substantial and
unjustifiable risk that the result will occur." OR. REV. STAT. §161.085(10). A person who is
reckless or reckless under circumstances manifesting extreme indifference to the value of human
life with respect to a result "is aware of and consciously disregards a substantial and unjustifiable
risk that the result will occur." OR. REv. STAT. §161.085(9).
Page 8 - FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 9 of 23

1269-71, 1278-79. Petitioner's trial counsel argued that Petitioner was not aware of the risk of
driving impaired in that moment because she was not aware how drunk she was, and thus was not
reckless. 4 Tr. 1270, 1276, 1278-79.
The prosecution argued that Petitioner was reckless under circumstances manifesting
extreme indifference to the value of human life, focusing on her decision to drive after drinking a
substantial amount of beer despite her previous education on the dangers of drinking and driving.
Tr. 1279-85. The prosecution argued that whether she drove the right way or wrong way on the
freeway, she was reckless under circumstances manifesting extreme indifference to the value of
human life when she chose to drive on the freeway after drinking. Tr. 1285-89.
The jury found Petitioner guilty of the charged counts. Tr. 1323-24; Resp. Exh. 101.
Petitioner was sentenced to 200 months in prison. Resp. Exh. 101.
II.

The Direct Appeal
Petitioner filed a direct appeal asserting that "[t]he trial court e1Ted in excluding evidence

that other drivers made the same wrong turn onto the I-5 northbound off-ramp that defendant
made."

Resp. Exh. 103, p. 14.

Petitioner argued primarily that the trial court eITed in its

application of OEC 401. Resp. Exh. 103, pp. 15-21. Petitioner additionally argued very briefly
that the exclusion of this evidence violated her right to present a complete defense under the
Oregon Constitution as well as the Compulsory Process Clause of the Sixth Amendment to the
United States Constitution and the Due Process Clause of the Fourteenth Amendment to the United
States Constitution. Resp. Exh. 103, pp. 21-22. The Oregon Court of Appeals affirmed without

4

"The difference between criminal negligence on the one hand and the two levels of recklessness
on the other is defendant's subjective awareness of the risks to which he exposes others." State
v. Johnstone, 172 Or. App. 559, 566 (2001) (emphasis in original) (quoting Hill, 298 Or. at 280).
Page 9 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

opm10n.

Document 55

Filed 04/27/20

State v. Sharipojf, 240 Or. App. 465 (2011 ).

Page 10 of 23

The Oregon Supreme Court denied

review. State v. Sharipojf, 350 Or. 297 (2011).
III.

The State Post-Conviction Proceeding
Petitioner then sought state post-conviction relief ("PCR"). She asserted ten claims of

ineffective assistance of trial counsel. Resp. Exh. 108, pp. 3-6. The PCR court denied relief.
Resp. Exh. 126. Petitioner appealed the PCR judgment, arguing only that the judgment did not
meet state law requirements. Resp. Exh. 127, p. 14. The Oregon Court of Appeals affirmed the
PCRjudgment without opinion, Sharipoffv. Steward, 274 Or. App. 260 (2015), and the Oregon
Supreme Comi denied review, Sharipojfv. Steward, 358 Or. 833 (2016).
IV.

Petitioner's Petition for Writ of Habeas Corpus
On August 25, 2016, Petitioner filed a prose Petition for Writ of Habeas Corpus Pursuant

to 28 U.S.C. § 2254 with this comi, alleging two claims for relief. In Ground One, Petitioner
alleges that the trial court's exclusion of evidence that other drivers made the same error at the
intersection where Petitioner entered the freeway going the wrong direction violated her
constitutional rights under the Sixth and Fomieenth Amendments. In Ground Two, Petitioner
alleges that trial counsel provided her with ineffective assistance of counsel in violation of her
Sixth Amendment rights. In nine sub-paiis, Plaintiff points to specific alleged trial counsel errors,
eight of which she also alleged in her PCR claim.
Respondent acknowledges that Petitioner fully exhausted Ground One in state court, but
argues Petitioner is not entitled to habeas corpus relief because the state court's decision on that
claim was not contrary to or an umeasonable application of clearly established federal law, and
even if it were, any e1Tor was harmless. Respondent argues Petitioner is not entitled to habeas

Page 10 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 11 of 23

relief on the claim alleged in Ground Two because it is procedurally defaulted, unargued, and
lacking merit.
Discussion
I.

Deference to State Court Decisions - Ground One
A. Legal Standards

An application for a writ of habeas corpus shall not be granted unless adjudication of the
claim in state court resulted in a decision that was: (1) "contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Comi of the United
States;" or (2) "based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding." 28 U.S.C. § 2254(d). A state comi's findings of fact
are presumed correct, and Petitioner bears the burden of rebutting the presumption of correctness
by clear and convincing evidence. 28 U.S.C. § 2254(e)(l).
A state comi decision is "contrary to ... clearly established precedent if the state court
applies a rule that contradicts the governing law set forth in [the Supreme Comi's] cases" or "if
the state comi confronts a set of facts that are materially indistinguishable from a decision of [the
Supreme] Court and nevertheless arrives at a result different from [that] precedent." Williams v.
Taylor, 529 U.S. 362, 405-06 (2000). Under the "unreasonable application" clause, a federal

habeas court may grant relief "if the state court identifies the correct governing legal principle
from [the Supreme Court's] decisions but unreasonably applies that principle to the facts of the
prisoner's case." Id. at 413. The "unreasonable application" clause requires the state comi
decision to be more than inc01Tect or erroneous. Id. at 410. Section 2254( d) "preserves authority
to issue the writ in cases where there is no possibility fairminded jurists could disagree that the

Page 11 - FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

state court's decision conflicts with [the Supreme] Court's precedents.

Page 12 of 23

It goes no fa1ther."

Harrington v. Richter, 562 U.S. 86, 102 (2011).
B.

Analysis - Exclusion of Evidence

In Ground One, Petitioner argues the trial comt's exclusion of evidence of other drivers'
errors at the intersection where Petitioner entered the freeway going the wrong direction violated
her constitutional rights under the Sixth and Fourteenth Amendments. The trial judge excluded
testimony from other drivers on the basis of relevance under OEC 401. "Incorrect state court
evidentiary rulings cannot serve as a basis for habeas relief unless federal constitutional rights are
affected." Lincoln v. Sunn, 807 F.2d 805,816 (9th Cir. 1987) (citing Givens v. Housewright, 786
F.2d 1378, 1381 (9th Cir. 1986)). Accordingly, this comt must look to the federal constitutional
rights involved. 5
The Sixth Amendment to the United States Constitution guarantees the right of a criminal
defendant to have a public trial, to confront witnesses against her, and to obtain witnesses in her
favor. Lunbery v. Hornbeak, 605 F.3d 754, 760 (9th Cir.), cert. denied, 562 U.S. 1102 (2010).
These guarantees are incorporated by the Due Process Clause of the Fomteenth Amendment,
binding the states. Id. The process due under the Fomteenth Amendment includes a right to '"a
meaningful opportunity to present a complete defense."' Crane v. Kentucky, 476 U.S. 683, 690
(1986) (quoting California v. Trombetta, 467 U.S. 479,485 (1984)). That right, however, is not
unlimited, and "a defendant's right to present relevant evidence ... is subject to reasonable
restrictions." United States v. Scheffer, 523 U.S. 303, 308 (1998). State evidentiary rules that

5

Petitioner's brief devotes significant space to the merits of the state evidentiary ruling on state
law grounds; however, it "is not the province of a federal habeas court to reexamine state-comt
determinations on state-law questions." Estelle v. McGuire, 502 U.S. 62, 67-68 (1991).
Page 12 - FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 13 of 23

exclude evidence from criminal trials "do not abridge an accused's right to present a defense so
long as they are not arbitrary or disproportionate to the purposes they are designed to serve." Id.
(internal quotations and citations omitted). The Supreme Court has "only rarely ... held that the
right to present a complete defense was violated by the exclusion of defense evidence under a state
rule of evidence." Nevada v. Jackson, 569 U.S. 505, 509 (2013). In rare circumstances in which
"constitutional rights directly affecting the ascertainment of guilt are implicated, [evidentiary
rules] may not be applied mechanistically to defeat the ends of justice." Chambers v. Mississippi,
410 U.S. 284, 302 (1973). The Supreme Court has "found the exclusion of evidence to be
unconstitutionally arbitrary or disproportionate only where it has infringed upon a weighty interest
of the accused." Scheffer, 523 U.S. at 308.
Petitioner argues that the trial court's exclusion of testimony from other drivers who had
incmrectly navigated the intersection violated her constitutional right to present a complete
defense. Petitioner cites several Supreme Comi decisions in support of her argument. These
cases address two interrelated evidentiary issues: application of arbitrary or disproportionate
rules to exclude evidence; and exclusion of critical exculpatory evidence. However, these cases
are distinguishable even if they were applied on direct review; moreover, they do not entitle
petitioner to habeas relief.
This comi must assess whether the exclusion of this evidence was contrary to or involved
an unreasonable application of clearly established federal law, as required in a petition for habeas
relief. 6 The trial court's exclusion as irrelevant evidence of other drivers' navigation of the

6

Petitioner makes no specific argument that the state court's decision was contrary to or involved
an unreasonable application of clearly established federal law.
Page 13 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 14 of 23

intersection is not contrary to clearly established federal law. The state court did not apply a rule
that contradicts governing law set fo11h by the Supreme Court's cases. The state court also did
not confront a set of facts that are materially indistinguishable from any Supreme Court decision
that a patty or this court has identified. Accordingly, this court's analysis must address whether
the state comt's decision involved an unreasonable application of clearly established federal law.
The state court in Petitioner's case did not unreasonably apply the holdings of the cases
Petitioner cites addressing arbitrary evidentiary rules.

Several Supreme Court cases provide

"illustrations of 'arbitrary' rules, i.e., rules that excluded important defense evidence but that did
not serve any legitimate interests;" in such cases, application of those rules violated a defendant's
constitutional rights. Holmes v. South Carolina, 547 U.S. 319, 325 (2006). In Washington v.

Texas, 388 U.S. 14, 22-23 (1967), the state court's rule that precluded the defense from calling
ce1tain witnesses, which purp011edly addressed pe1jury concerns, could not be rationally defended
on that basis. In Chambers, the defendant was denied permission to examine a key witness as
adverse based on the voucher rule; on appeal, the state did not even attempt to defend or explain
the rationale of the voucher rule. 410 U.S. at 297. In Crane, the defendant was not allowed to
present evidence suggesting his confession was unreliable based on an evidentiary rule for which
neither the Kentucky Supreme Court nor the prosecution "advanced any rational justification."
476 U.S. at 691. In Rock v. Arkansas, 483 U.S. 44, 61 (1987), the defendant was ban-ed from
testifying about ce11ain memories under a per se rule prohibiting hypnotically enhanced testimony
that the Supreme Court found to be an arbitrary restriction lacking justification. In Holmes, the
rule applied to exclude the defendant's evidence of third-party guilt was arbitrary because it did
not rationally serve any discernible purpose.

54 7 U.S. at 331.

Page 14 -FINDINGS AND RECOMMENDATION

However, the constitutional

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 15 of 23

infirmities associated with arbitrary and disproportionate rules do not extend to all evidentiary
rules or decisions:
While the Constitution thus prohibits the exclusion of defense evidence under rules
that serve no legitimate purpose or that are disproportionate to the ends that they
are asserted to promote, well-established rules of evidence permit trial judges to
exclude evidence if its probative value is outweighed by ce1iain other factors such
as unfair prejudice, confusion of the issues, or potential to mislead the jury.
Holmes, 547 U.S. at 326.

This case does not present an instance in which the state court excluded evidence based on
an arbitrary rule. Here, the trial judge excluded evidence based on OEC 401, a basic rule of
evidence requiring that evidence be relevant. "The function of the doctrine of relevancy is to
require that there be some rational relationship between the item of evidence offered by a litigant
and the substantive issues properly provable in the case." State v. Guzek, 322 Or. 245, 251, 906
P.2d 272, 276 (1995) (citing 22 Wright & Graham, Federal Practice & Procedure: Evidence §
5164, at 37 (1978)). Thus, far from being arbitrary, the relevancy requirement is a fundamental
and rational rule serving a legitimate interest.

Furthermore, "[r]elevancy is not an inherent

characteristic of any item of evidence but exists only as a relation between an item of evidence and
a matter properly provable in the case." Id. (internal quotation marks omitted). Accordingly,
determining whether evidence is relevant does not involve the mechanistic application of an
evidentiary rule, but rather requires a careful consideration of the specific evidence and the matters
to be proven in the case. In this case, the trial judge carefully considered the relevancy of the
disputed evidence before deciding the issue. Tr. 574-76, 1022-26. Because this case involved
the case-specific application of a well-established rule of evidence that serves legitimate interests
and is not arbitrary, the state comi's exclusion of the evidence "did not run afoul of the Chambers-

Page 15 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 16 of 23

Washington-Rock prohibition against arbitrary and mechanistic exclusion of exculpatory

evidence." See LaGrand v. Stewart, 133 F.3d 1253, 1267 (9th Cir. 1998). Instead, the rule "is
more analogous to those evidentiary rules described with approval in Holmes." See Moses v.
Payne, 555 F.3d 742, 758 (9th Cir. 2009) (citing Holmes, 547 U.S. at 326) (reasoning that Supreme

Court precedent supported the constitutionality of Washington's evidentiary Rule 702 allowing
discretion in the admission of expe1i testimony). Accordingly, Petitioner could not successfully
argue that OEC 401 itself infringes on her right to present a complete defense. See id. Therefore,
the state court did not unreasonably apply Supreme Court precedent on this point.
Petitioner argues that the trial comi's application of OEC 401 to exclude evidence
regarding other drivers' conduct at the intersection violated her constitutional rights because that
evidence was critical to her defense.

On this point, Chambers provides "clearly established

Federal law." See 28 U.S.C. § 2254(d)(l). In Chambers, the Supreme Comi held a state court
may not mechanistically apply evidentiary rules to exclude directly exculpatory evidence that is
reliable and critical to the defense's case. 410 U.S. at 300-01. In Chambers, the defendant
sought to introduce the testimony of three different third-parties who would testify that another
man had confessed to committing the murder of which the defendant had been accused. Id. at
298. The Mississippi Supreme Comi upheld the trial court's exclusion of the evidence because it
was hearsay and not subject to exception under state evidentiary rules at that time. Id.

The

Supreme Comi determined that "under the facts and circumstances" of that case, exclusion of this
reliable testimony that was crucial to Chambers' defense violated Chambers' constitutional rights.
Id. at 302-03. The Comi concluded that "[i]n these circumstances, where constitutional rights

Page 16 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 17 of 23

directly affecting the asce1iainment of guilt are implicated, the hearsay rule may not be applied
mechanistically to defeat the ends of justice." Id.
The Ninth Circuit has relied on Chambers as a basis for habeas relief in several cases in
which the state court excluded critical, reliable, directly exculpatory hearsay evidence. See, e.g.,

Cudjo v. Ayers, 698 F.3d 752 (9th Cir. 2012), cert. denied, 569 U.S. 1013 (2013) (excluded
evidence showed that a different person committed the murder of which defendant was accused);

Lunbery, 605 F.3d 754 (same). However, Chambers presents a rare set of facts that is not often
replicated. See Scheffer, 523 U.S. at 316 (observing that "Chambers specifically confined its
holding to the 'facts and circumstances' presented in that case"); Montana v. Egelhoff, 518 U.S.
37, 52 (1996) (plurality opinion) (noting that "Chambers was an exercise in highly case-specific
error correction").

Chambers does not establish that any reliable exculpatory evidence must be admitted. The
Ninth Circuit has observed that "[e]vidence falls within Chambers's admissibility rule only when
its exclusion 'significantly undermine[ s] fundamental elements of the defendant's defense."'

Ayala v. Chappell, 829 F.3d 1081, 1114 (9th Cir. 2016) (quoting Scheffer, 523 U.S. at 315). In
Chambers, and in Cudjo and Lunbery, the excluded evidence was directly exculpatory. In each
case, the evidence at trial pointed to a single person committing murder, the issue of the case was
the identity of the murderer, and the excluded evidence pointed to a murderer other than the
defendant. Cudjo, 698 F.3d at 765 (citing Chambers, 410 U.S. at 297; Lunbery, 605 F.3d at 760).
Additionally, in Chambers, as in Cudjo and Lunbery, the excluded evidence was critical to the
defense; without it, the defendant was severely hamstrung in presenting an alternative theory of
the case. Chambers, 410 U.S. at 302; Cudjo, 698 F.3d at 766; Lunbery, 605 F.3d at 761.

Page 17 - FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 18 of 23

Petitioner's case is distinguishable from Chambers. As a preliminary matter, Chambers
deals with admission of hearsay; in this case, plaintiff proposed to offer firsthand testimony that
was excluded based on relevance.
[W]hen a Supreme Comi decision does not squarely address the issue in the case
or establish a legal principle that clearly extends to a new context ... , it cannot be
said, under [Section 2254(d)], there is clearly established Supreme Court precedent
addressing the issue before [the habeas court], and so [the habeas comi] must defer
to the state court's decision.
Moses, 555 F.3d at 754 (quoting Wright v. Van Patten, 552 U.S. 120, 745-46 (2008) (internal
quotations omitted)). Because Chambers addresses admissibility of reliable hearsay, Chambers
does not squarely address the issue in this case, and the legal principle it establishes does not
clearly extend to this case. 7 No other Supreme Comi case that the parties have cited or this comi
can identify addresses the specific issue in or establishes a principle extending to this case.
Accordingly, this court must defer to the state comi's decision.
Fmihermore, even if Chambers provides clearly established federal law in this case, the
state did not unreasonably apply it.

First, unlike the evidence in Chambers, the evidence

Petitioner sought to present was not directly exculpatory. At best, the excluded evidence could
have shown that Petitioner's mistake at the intersection was relatively easy to make, undermining
the inference that Petitioner's wrong turn showed she was acting recklessly under circumstances
manifesting extreme indifference to the value of human life. Accordingly, although the excluded
evidence could have supported her argument that there were no circumstances manifesting extreme

7

For instance, because Petitioner's excluded evidence was not hearsay, the reliability analysis in
Chambers is not applicable in this case.

Page 18 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 19 of 23

indifference to the value of human life, it could not have exonerated her. 8 See Ayala, 829 F.3d at
1114 (finding that although excluded evidence "supported defendant's theory of the case, it was
not directly exculpatory like the confession in Chambers"); see also Thiecke v. Kernan, 695 F.
App'x 209, 211 (9th Cir. 2017) ("[I]n contrast to the excluded statements in Chambers, the
excluded hearsay testimony here was not directly exculpatory."). At worst, the excluded evidence
was not exculpatory at all; other drivers who had entered the off-ramp going the wrong direction
had, unlike Petitioner, immediately c01Tected their mistakes without causing a crash. Indeed,
when addressing Petitioner's wrong-way driving as evidence of her recklessness under
circumstances manifesting extreme indifference to the value of human life, the prosecutor
consistently focused not Petitioner's initial wrong-way entry onto the freeway, but on her failure
to pull over despite her admitted awareness that she was going the wrong direction,. Tr. 888-89,
1281-82.
Second, the excluded evidence in Petitioner's case, unlike the excluded evidence in
Chambers, was not critical to the defense. Petitioner was able to introduce expe1i evidence that

the intersection was confusing and poorly signed. Although Petitioner argues that the admitted
theoretical evidence from experts would have been more compelling if corroborated with practical
evidence from other drivers, dissatisfaction with the admitted evidence does not mean the excluded
evidence was "critical." See Santifer v. Evans, 312 F. App'x 857, 858 (9th Cir. 2009) (reasoning
that "unlike Chambers, the excluded testimony here was not 'critical' to the defense" where it
would merely have corroborated other admitted evidence); see also Crane, 476 U.S. at 690

8

Because Petitioner's wrong turn at the intersection has little bearing on her admission that she
was aware of the risks involved in her conduct - drinking and driving - evidence about the
intersection does not even directly support the argument that she was merely criminally negligent.
Page 19 -FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 20 of 23

(recognizing that states' evidentiary rules may constitutionally exclude evidence "even if the
defendant would prefer to see that evidence admitted").

Because Petitioner's case is

distinguishable from Chambers in key respects, the state court's decision was not an unreasonable
application of Chambers even if Chambers provided the relevant Supreme Court precedent for
purposes of Section 2254( d).
Finally, even if the state court's ruling were contrary to or involved an unreasonable
application of Supreme Court precedent, habeas relief would not be warranted in Petitioner's case.
In federal habeas corpus proceedings, a harmless error analysis "requires federal comis to
determine 'whether the enor had substantial and injurious effect or influence in determining the
jury's verdict."' Cudjo, 698 F.3d at 768 (quoting Brecht v. Abrahamson, 507 U.S. 619, 637
(1993)). Here, the evidence from other drivers, if admitted, would have had a minor impact.
First, the exclusion had only a small impact on the defense Petitioner was able to present.
Petitioner presented evidence that the intersection was confusing and poorly signed; the experience
of other drivers would merely have provided a practical complement to that evidence. 9 Second,
the State's case regarding Petitioner's recklessness under circumstances manifesting extreme
indifference to the value of human life was strong regardless of her incorrect navigation of the
intersection: Petitioner had a very high blood alcohol content, a fact she never contested. Also,
she acknowledged she previously had completed a course on the dangers of drinking and driving,
yet after consuming three or four beers, she still decided to drive on the freeway and then realized
she was going the wrong way but failed to pull-over. Instead, she sped-up and moved into the

9

As noted above, it is unclear whether this evidence would have helped Plaintiffs case or harmed
it; other drivers who made a similar mistake immediately conected it.

Page 20 - FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 21 of 23

median lane. Thus, these other circumstances allowed the jury to find her conduct manifested
extreme indifference to the value of human life, and the exclusion of the evidence regarding other
drivers' experiences at the intersection did not have a substantial and injurious effect or influence
in dete1mining the jury's verdict.
The trial judge's exclusion of evidence of other drivers' incorrect navigation of the
intersection where Petitioner entered the highway going the wrong way was not contrary to or an
umeasonable application of clearly established federal law. Even if it was, however, any enor in
excluding the testimony was harmless. Accordingly, Petitioner is not entitled to habeas corpus
relief on the claim alleged in Ground One.
V.

Procedurally Defaulted Claim - Ground Two

A. Legal Standards
A habeas petitioner must exhaust his claims by fairly presenting them to the state's highest
comi, either through a direct appeal or collateral proceedings, before a federal court will consider
the merits of those claims. Rose v. Lundy, 455 U.S. 509, 519 (1982). "As a general rule, a
petitioner satisfies the exhaustion requirement by fairly presenting the federal claim to the
appropriate state courts ... in the manner required by the state courts, thereby 'affording the state
courts a meaningful opportunity to consider allegations of legal enor."' Casey v. Moore, 3 86
F.3d 896, 915-916 (9th Cir. 2004) (quoting Vasquez v. Hille1y, 474 U.S. 254, 257 (1986)). If a
habeas litigant failed to present his claims to the state comis in a procedural context in which the
merits of the claims were actually considered, the claims have not been fairly presented to the state
courts and therefore are not eligible for federal habeas corpus review. Edwards v. Carpenter, 529
U.S. 446, 453 (2000); Castille v. Peoples, 489 U.S. 346, 351 (1989).

Page 21 - FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 22 of 23

A petitioner is deemed to have "procedurally defaulted" his claim if he failed to comply
with a state procedural rule or failed to raise the claim at the state level. Carpenter, 529 U.S. 446,
451 (2000); Coleman v. Thompson, 501 U.S. 722, 750 (1991). If a petitioner has procedurally
defaulted a claim in state court, a federal court will not review the claim unless the petitioner shows
"cause and prejudice" for failure to present the constitutional issue to the state court or makes a
colorable showing of actual innocence. Gray v. Netherland, 518 U.S. 152,162 (1996); Sawyer v.
Whitley, 505 U.S. 333, 337 (1992); Murray v. Carrier, 477 U.S. 478,485 (1986).
B.

Analysis

In Ground Two, Petitioner alleges that trial counsel provided ineffective assistance of
counsel in violation of her Sixth Amendment rights. Petitioner raised similar claims against trial
counsel in her PCR petition. 10 Resp. Exh. 108, pp. 3-6. However, Petitioner did not raise these
claims on her appeal of the PCRjudgment; instead, she argued that the PCR court's judgment did
not comply with state law requirements. Resp. Exh. 127, p. 14. Accordingly, Petitioner did not
fairly present her claims regarding trial counsel's ineffective assistance to the Oregon Court of
Appeals or Oregon Supreme Court, and she no longer has an opportunity to do so. OR. REV.
STAT.§ 138.650(1) (2019) (notice of appeal in PCRproceeding must be filed no later than 30 days
after the judgment or order appealed from was entered).

Because Petitioner has not fairly

presented and cannot now fairly present her ineffective assistance claims to the highest Oregon
court, her claim on Ground Two is procedurally defaulted.
Petitioner does not provide any legal argument on Ground Two in her Petition for Writ of

10

Of the nine subclaims in Petitioner's Petition for Writ of Habeas Corpus, eight were argued in
her PCR petition. Resp. Exh. 108, pp. 3-6.
Page 22 - FINDINGS AND RECOMMENDATION

Case 3:16-cv-01711-AC

Document 55

Filed 04/27/20

Page 23 of 23

Habeas Corpus, brief, or sur-reply. Thus, Petitioner has not sustained her burden to demonstrate
why she is entitled to relief on this claim. See Lampert v. Blodgett, 393 F.3d 943, 970 n.16 (9th
Cir. 2004). Moreover, Petitioner makes no attempt to excuse the procedural default; thus, habeas
review is precluded. Accordingly, habeas relief as to Ground Two should be denied.
Recommendation

For these reasons, the Petition for Writ of Habeas Corpus (ECF No. 2) should be DENIED,
and a judgment of dismissal should be entered. A certificate of appealability should be denied as
Petitioner has not made a substantial showing of the denial of a constitutional right. See 28 U.S.C.
§ 2253(c)(2).
Scheduling Order

The above Findings and Recommendation are referred to a United States District Court
Judge for review.

Objections, if any, are due 17 days after entry of this Findings and

Recommendation. If no objections are filed, review of the Findings and Recommendation will
go under advisement that date.
A party may respond to another party's objections within 14 days after the objections are
filed.

If objections are filed, review of the Findings and Recommendation will go under

advisement upon receipt of the response, or on the latest date for filing a response.
DATED this~

7~y of April, 2020.

Page 23 -FINDINGS AND RECOMMENDATION

